                                                       NATIONAL
                                                        OFFICE OF SCIENCE
                                                                  INSPECTOR
                                                                          FOUNDATION
                                                                            GENERAL
                                                          OFFICE OF INVESTIGATIONS

 f
 @
 -00so n<\O
   4
                                              CLOSEOUT MEMORANDUM

 Case Number: I 03030008                                                                     Page 1 of 1



         On February 10,2003, information was received in the OIG Office indicating that an NSF
         ~ m ~ l o ~hade eposted
                           '     three items for sale on the Announce Channel during a three-week period.
         All of the items posted2 were similar and the concern was that the employee might have been
         utilizing the Announce Channel to promote a personal business in violation of NSF Bulletin 98-
         13.

         The subsequent investigation identified that the items offered for sale were the personal property
         of the individual selling them and posting the items on the Announce Channel was within the
         current policy guidelines and consistent with other items advertised on the channel. Further
         review failed to identify any abuse of the Announce Channel by this employee.

         It was noted however that the current policies are vague and difficult to locate. These issues
         have been previously identified and are the subject of another I-case3 currently under
         investigation. In conjunction with that investigation, a recommendation will be made to NSF to
         clarify the agencies' current policies regarding both the Announce Channel for advertising items
         for sale and the overall use of NSF Technology and Communication Resources. It will also be
         recommended that all staff receive notification of the new policies once enacted.




                   Accordingly, this case is closed.




-

NSF OIG Form2 (1 1/02)
